TX
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 20-183

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

BILLY D. STAIR, individually, and in his official capacity
with the Jacksonville Police Department,

Petitioner,
vs.
CHARLES JACKSON,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies

with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2990 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

Onda h, Chale

 

i GENERAL NOTARY-State of Nebraska Kone.

Notary Public

Affiant
40504
